FEDERAL ELECTION COMMISSION


OFFICE OF INSPECTOR GENERAL




       FINAL REPORT




    AUDIT OF AGENCY

  YEAR 2000 RENOVATIONS

           As of 3/31/1999




              May 1999

       AUDIT ASSIGNMENT 98-08

Table of Contents                                        Final Audit Report No. 98-08



                               Table of Contents


Executive Summary ………………………………………………………                                       i



Background ………………………………………………………………                                           1


        Federal Milestone Dates     ………………………………………                           1

        Mission Critical Systems    ………………………………………                           4

        FEC Gains Momentum          ………………………………………                           5

        Audit Objective, Scope, Methodology ………………………                         5

        Statement on Management Controls ………………………………                         6



Audit Results         ………………………………………………………                                   7


        Assessing Project Risk       ………………………………………                          8

        Disclosure System Overview ………………………………………                           10

        Presidential Funding Program ………………………………………                         11

        FEC Needs Y2K Outreach Program ………………………………                          12

        Financial System Overview ………………………………………                            13

        Communications Network Not Fully Compliant         ………………            14

        Inconsistency in Reporting Mission Critical Systems………………            16

        FEC Needs Contingency Planning ………………………………                          17

        FEC FAXLINE System Not Scheduled for Y2K Testing      ………            19

        Independent Verification of Y2K Renovations Needed    ………            20

        User Acceptance Testing Not Meeting Expectations .………………             21

        Compliance with Laws and Regulations         ……………………….              22



Appendix A
                User Acceptance Testing Survey   ……………………….                  24


Appendix B
                Management’s Response to Draft Report   ……………….              27


Appendix C
                OIG Comments on Agency Response to Draft Report ……..         33


Appendix D
                Audit Letter to Management ………………………………..                    35

Executive Summary                                               Final Audit Report No. 98-08



                              Executive Summary
The Office of Inspector General initiated and completed a limited-scope audit of the

Year 2000 (Y2K) renovation project at the Federal Election Commission (FEC). We

conducted our audit to assess the reported progress of the FEC to convert and implement

Y2K repairs on its computer systems. Throughout our audit, we regularly updated the

Y2K team on project risk that we had identified during our audit fieldwork, and provided

specific recommendations to reduce the exposure to the FEC from those risks.


Milestone dates published by the U.S. Office of Management and Budget (OMB)

establish progress goals for all Federal agencies. The General Accounting Office (GAO)

developed guidelines for use by Federal agencies as a framework for achieving the OMB

progress goal of becoming Y2K compliant. We evaluated agency progress using OMB’s

milestone dates and GAO’s methodology. Based on our audit work, we conclude that the

Y2K project status as reported by the FEC is consistent with the actual progress achieved.

As explained within our audit report, for its internally developed software the FEC has

funded for independent verification of Y2K renovations through an outside vendor. We

did not validate those renovations. However, our audit does show that there are still

major issues to be resolved to fully prepare computer operations at the FEC for the new

millennium. Those issues are addressed in the Audit Results section of this report.


                             The FEC Shows Progress

The FEC has been required by OMB to report twice thus far on the progress of its Y2K
renovation project. From information contained in the first FEC Y2K report issued in
April 1998, OMB assessed the FEC’s Y2K project this way: “Progress behind schedule.
No contingency plan; no IV&V.” By February 1999, the FEC was reporting 100 percent
of its mission critical software renovated and tested. However, in its 8th Quarterly
Report released in March 1999, OMB expressed concerns similar to those it had earlier:

       “Making progress on IT systems. The agency is 100% complete in its
       mission critical software conversion. Anticipated compliance in
       October. FEC needs a business continuity and contingency plan. The
       verification and validation plan is weak. FECs payroll and personnel
       systems will be converted to National Finance Center in October
       1999.”

                              Unresolved Y2K Issues

The Y2K project team has reported repairing over 3,000 software programs consisting of
over one million lines of programming code, bringing internally developed computer
programs into alignment with government-wide milestone dates. Although the FEC is
making progress, the agency’s February 1999 Y2K report to OMB indicates that neither
contingency planning or independent verification and validation (IV&V) has yet begun.
The report goes on to state that the agency’s computer hardware, 3rd party software, and


                                             i
Executive Summary                                              Final Audit Report No. 98-08


supporting communications network are not yet Y2K compliant. In addition, while
system renovation work and program testing has been completed on the agency’s most
important computer system, other testing has yet to be conducted.

Also, our audit work shows that the FEC has not fully achieved progress required from
published OMB directives. For example, a documented inventory of data exchanges with
outside parties had not been completed and communications have not been established
with each data exchange partner on how to fix the Y2K problem. In addition, the FEC
needs to develop a listing of all computer services contracts with outside vendors, and
determine whether those contracts comply with Federal regulations requiring Y2K
provisions. Furthermore, our audit results show the need for an agency-wide team effort
to ensure that the FEC will be able to achieve total Y2K compliance in a timely manner.

                             Audit Recommendations

Our audit recommendations addressing the issues discussed above are listed individually
beginning on the first page of the Audit Results section in this report. They are also
contained within the body of the audit report after the detailed discussion of each
corresponding issue. Following our audit recommendations, we have incorporated
pertinent written comments provided by agency management. Management’s response to
the draft audit report is included in its entirety as Appendix B. Our subsequent response
to management’s comments is provided in Appendix C. Finally, our suggestions for
improvement to management controls for project planning and reporting metrics has
been forwarded to the appropriate agency officials, and included as Appendix D of this
report.




                                            ii
Background                                                                   Final Audit Report No. 98-08



                                          Background
Computer systems provide mission critical services for the Federal Election Commission
(FEC). These systems enable the news media, research institutions, and the public easy
access to information regarding funds raised and spent to influence Federal elections. In
addition, mission critical computer systems at the FEC warehouse information necessary
to enforce limitations and prohibitions on contributions, process data for the Presidential
public funding program, account for government held assets, and maintain personnel and
payroll data on employees.

Computer systems that cannot accurately store or properly process the century field are at
risk of failing when called upon to manipulate data with a date of January 1, 2000 or
later. Computer systems that currently use a two digit date field (i.e. “99” for the year
1999) will not be able to recognize “00” as the year 2000. This problem is largely the
result of the high cost of computer memory in the 1960s and 1970s, when programmers
adopted a space-saving two-digit programming convention to represent the year. The
General Accounting Office (GAO) has identified the Year 2000 (Y2K) problem as a
government-wide high risk issue because of the potential impact if Federal systems fail to
operate properly.

We conducted our audit to assess whether the reported project status at the FEC matched
the agency’s actual progress in resolving its Y2K problem. By conducting our audit in
accordance with generally accepted government auditing standards, we also evaluated
agency compliance with applicable laws and regulations. Based on our audit work, we
conclude that the progress reported by the FEC is consistent with actual Y2K project
results achieved. As explained within the audit report, for its internally developed
software the FEC has funded for independent verification of Y2K renovations through an
outside vendor. We did not validate those renovations1. However, our audit does show
that there are still major issues to be resolved to fully prepare computer operations at the
FEC for the new millennium. Those issues are addressed in the Audit Results section of
this report. Additionally, our suggestions for improvement of project management are
being provided to the FEC in the form of a Management Letter, which is shown in this
report as Appendix D.

                                    Federal Milestone Dates

During February 1997, U.S. Office of Management and Budget (OMB) designed an
overall Federal strategy and authorized the Chief Information Officer, or a similarly
designated official within each of the larger Federal agencies, to direct work and follow
industry best practices to resolve the Y2K problem. OMB required each large Federal

1
  As explained by OMB in its 8th Quarterly Report: “Validation involves multiple phases of testing,
including a combination of testing of individual components (unit testing), testing of entire systems
(integration or systems testing), and in some cases, testing of a string of interdependent systems (end-to-
end testing).”


                                                     1

Background                                                               Final Audit Report No. 98-08


agency to report on their progress, and also established government-wide milestone dates
to resolve the Y2K problem, see Exhibit No. 1.2 These milestones dates provided targets
for the completion of the majority of work in each phase of Y2K activities. In January
1998, OMB subsequently revised and accelerated three of the milestone dates.

                                          Exhibit No. 1
                               OMB Scheduled Milestone Dates

              Phase/Work                       Milestone Date           Revised Date

             Awareness                        12/96                                Same
             Agency Strategy to be Completed.

             Assessment
             Inventory and Scope Completed.              3/97                      Same

             System Plans and Schedules.                 6/97                      Same

             Renovation                                12/98                       9/98
             Coding Repairs to be Completed.

             Validation                                  1/99                      1/99
             Management Sign-off.

             Implementation                            11/99                       3/99
             Integrated Testing Completed.


             Source: For Milestone Dates and Revised Dates - see Footnote No. 1.




It was not until March 1998 that OMB established reporting requirements for smaller
Federal agencies, like the FEC.3 OMB requested that the smaller agencies report their
Y2K status in basically the same format as that published earlier for larger Federal
agencies. While OMB did not require quarterly reporting from the smaller agencies, they
were directed to report on their Y2K project once at the end of April 1998, and again on
May 15, 1999. Subsequently, in its 7th Quarterly Report, OMB accelerated the May 1999
reporting date to February 15, 1999. In its “8th Quarterly Report - Progress on Year 2000

2
   “Getting Federal Computers Ready for 2000,” published by OMB, dated February 6, 1997. Subsequently
revised in OMB M-98-02, dated January 20, 1998.
3
  “Progress Reports on Fixing Year 2000 Difficulties for Small Agencies,” OMB M-98-07, dated March 9,
1998.


                                                  2

Background                                                                Final Audit Report No. 98-08


Conversion” issued on March 18, 1999, OMB established new reporting requirements
affecting each small Federal agency not fully completed in their Y2K renovations. These
agencies will now be required to report quarterly to OMB until their work is finished.
Accordingly, this means that the FEC will need to submit its next Y2K progress report to
OMB on May 15, 1999.

Therefore, the FEC was initially required to only report twice on its Y2K renovation
project. However, recognizing the criticality of the Y2K issue, senior management at the
FEC choose instead to expand upon the mandatory OMB reporting requirement electing
to publish regular Y2K quarterly reports starting with the first report issued on April 30,
1998. Based on the information provided by the FEC in the April 1998 report, OMB
assessed the FEC’s Y2K project as follows: “Progress behind schedule. No contingency
plan; no IV&V.”4 Immediately following the release of each OMB quarterly report, it has
been the practice of the U.S. House of Representative Subcommittee on Government
Management, Information and Technology to announce its own assessment on the
progress reported by each agency and assign grades between ‘A’ and ‘F’ based on their
progress. After OMB’s 5th and 8th Quarterly Reports, the only reports thus far to include
the efforts for both small and large Federal agencies, the Congressional Subcommittee
chose not to assign grades to smaller agencies, continuing to grade only the large Federal
agencies.

In the March 1998 Y2K directive, OMB required small agencies to achieve progress
corresponding to the milestone dates which had been established for the large Federal
agencies. As can be seen in Exhibit No. 1, three of the milestone dates had already past
prior to OMB publishing the March 1998 guidance. In that directive, OMB listed the last
three revised milestone dates and then summarily stated, “The assessment phase should be
complete.” Furthermore, two other milestone dates cited in OMB’s March 1998
memorandum had already come and gone. One for an inventory of data exchanges with
external parties; and the other, to notify each external data provider of the ramifications
regarding the Y2K problem.

OMB attached the February 1997 Y2K policy that it had issued earlier for the large
Federal agencies as an appendix to the March 1998 directive for small agencies. As part
of that policy, OMB stated that its overall strategy is predicated on three basic
considerations, the third of which sets forth the following:


       “Given the limited amount of time, emphasis will be on mission critical
       systems. In many agencies such systems are large and complex, which means
       they will require the most time and be the most challenging to fix.”




4
    “Progress on Year 2000 Conversion, 5th Quarterly Report, issued by OMB, as of May 15, 1998.


                                                    3

Background                                                            Final Audit Report No. 98-08


                                Mission Critical Systems

As shown in Exhibit No. 2, the FEC is reporting sixteen computer systems as critical to
accomplishing the agency’s mission. A mission critical system is defined as any system
that, should it fail due to the lack of Y2K readiness, the agency will not be able to perform
its stated mission. In addition to identifying the mission critical systems, Exhibit No. 2
also shows the status for each system.

In its strategic plan, the FEC describes its mission this way: “The ultimate mission of the
FEC is to assure that the campaign finance process is open, fully disclosed and fairly
enforced, fostering the electorate’s faith in the ultimate fairness of the nation’s political
process.” Maintaining current and accurate data in its computerized reporting systems is
central to the FEC achieving its mission.


                                        Exhibit No. 2
                          Status of Mission Critical Systems
                    As Reported by the Federal Election Commission

   System                                   Renovated        Tested          Current Status

   Accounting                               Yes              Yes             Implemented
   Disclosure                               Yes              Yes             Implemented
   3rd Party Software                       No               No              In-Process
   Hardware(3rd Party & FEC Owned)          No               No              In-Process
   Imaging Micro Updating                   Yes              Yes             Implemented
   Information                              Yes              Yes             Implemented
   Mailroom                                 Yes              Yes             Implemented
   Matching Funds Processing                Yes              Yes             Implemented
   OGC Tracking                             Yes              Yes             Implemented
   Open/Closed Minutes Comm. Sec.           Yes              Yes             Implemented
   Payroll                                  Yes              Yes             Implemented
   Personnel                                Yes              Yes             Implemented
   Planning & Management                    Yes              Yes             Implemented
   Press                                    Yes              Yes             Implemented
   RAD                                      Yes              Yes             Implemented
   Teamlinks /Lotus Notes                   Yes              Yes             Implemented


   Source: “Report on Year 2K Remediation” The Federal Election Commission, dated February 12,
   1999.




                                                4

Background                                                       Final Audit Report No. 98-08


                The Y2K Project at the FEC Gains Momentum

Documentation shows that the FEC began to recognize the potential impact of the Y2K

problem on future operations, in early 1997. For instance, On March 6, 1997 in a

transmittal to the Honorable Bob Livingston, Chairman of the House Committee on

Appropriations, the FEC provided Chairman Livingston with its Automated Data

Processing Strategic Plan for Fiscal Years 1997-2002. In that same transmittal, a cover

letter signed by the Chairman of the FEC listed specific agency computerization

initiatives requiring future funding considerations. One of these initiatives was the Y2K

issue.


Additionally, during 1997 numerous electronic mail messages issued from the Staff

Director, continued to alert agency staff at the FEC of the pending Y2K problem. The

Staff Director subsequently left the FEC at the end of July 1998. Agency awareness of

the problem culminated in the formation of a Y2K project team within the Data Systems

Development Division. The team’s first initiative was to complete an agency-wide

inventory of computer software for “in-house” developed programs. This inventory was

documented in November 1997, prior to OMB’s directive to small agencies.


In December 1998, the Y2K team reported that all in-house developed programming

code for systems scheduled to be in operation after January 1, 2000, had been repaired to

recognize a four digit century structure. Many of the renovated programs had also been

partially or completely tested, and some implemented. During January 1999, the Y2K

project team began discussions with outside vendors to obtain independent verification

and validation (IV&V) of Y2K renovations.


On February 12, 1999, the FEC issued the second of two mandatory Y2K reports required

by OMB, detailing the current status of the agency’s Y2K renovation efforts. As

previously stated, the FEC is reporting 100% of its mission critical software converted

and tested. Based on the information provided by the FEC in its February 1999 report,

OMB’s 8th Quarterly Report issued during March 1999 summarized the agency’s

progress as follows:


       “Making progress on IT systems. The agency is 100% complete in its
       mission critical software conversion. Anticipated compliance in October.
       FEC needs a business continuity and contingency plan. The verification
       and validation plan is weak. FECs payroll and personnel systems will be
       converted to National Finance Center in October 1999.”


                    Audit Objective, Scope and Methodology

We conducted our audit to verify the reported progress of the Y2K renovation project at
the FEC, and to evaluate compliance with applicable laws and regulations. To
accomplish our objectives, we used various methods of data collection including


                                             5

Background                                                         Final Audit Report No. 98-08


interviews, surveys, and review of documents. Our audit was not limited solely to
evaluating the agency’s progress for preparing its mission critical systems, we also
performed a cursory review of the agency’s overall state of readiness. To obtain a
perspective on the adequacy of the FEC’s Y2K project we used OMB directives, as well
as guidance issued by GAO.

The GAO publication, “Year 2000 Computing Crisis: An Assessment Guide” which was
finalized in September 1997, had been released in draft in February 1997, and made
available as an added resource for Federal agencies to use in evaluating progress on their
Y2K system renovation projects. The GAO guide draws on the work of the CIO Council
Subcommittee on Y2K, and incorporates guidance and practices identified by leading
organizations in the information technology industry. The GAO guidelines contain five
primary phases, each listing key processes that should be accomplished in order to fully
complete the phase. The five phases are: Awareness, Assessment, Renovation,
Validation, and Implementation. In their Y2K quarterly reports to OMB, the FEC
accepted the five phases listed in the GAO guidelines as, the solution framework the
agency will use to resolve the Y2K issue. Exhibit No. 1, presents OMB milestone dates
for each of the five phases. All Federal agencies should have completed the majority of
the work for the last OMB milestone date, by March 1999.

We conducted our survey and fieldwork from December 1998 through March 1999, in
accordance with generally accepted government auditing standards. The scope of our
audit was agency-wide.

                            Statement on Management Controls

As part of our audit, we assessed the system of management controls, policies,
procedures, and practices applicable to the FEC’s management of the Y2K project. Our
assessment was performed to determine the level of control risk for determining the
nature, extent, and timing of our substantive tests to accomplish our objective.

Due to inherent limitations, a study and evaluation made for the limited scope purposes
described above, would not necessarily disclose every material weaknesses or reportable
condition. However, we identified reportable conditions and recommended
improvements for the on-going management of the Y2K compliance effort. These
conditions and their effects are fully described in the Audit Results section of this report,
and in the management letter shown as Appendix D.




                                               6

Audit Results                                                           Final Audit Report No. 98-08



                                        Audit Results
In February 1998, President Clinton issued an Executive Order which directs the head of
each Federal agency to “assure that efforts to address the Y2K problem receive the
highest priority attention in each agency5.” Efforts at the FEC in recent months indicate
progress in preparing agency computer systems for the new millennium; however, the
Y2K project still has not evolved into an agency-wide team effort. During the course of
our audit, we regularly briefed FEC officials on audit results and offered suggestions for
improvement. Because issues remain to be resolved, we recommend that the FEC:

1.	 For the inventory of its data exchanges, ensure that the internal and external
    dependency links between enterprise core business areas, processes, and information
    systems are documented in detail.

2.	 Communicate with each external data exchange partner regarding the Y2K issue, and
    use the agency’s WEB site as a means of keeping its public informed on the current
    status of the Y2K problem.

3.	 Update and issue the statement of work requiring Y2K compliant technology for the
    product and services covered under the ADP contract, complete work on the agency’s
    internal network, and perform end-to-end testing using FEC data to ensure that the
    communications network is fully Y2K compliant.

4.	 In future Y2K reports issued to OMB, the FEC should include the computerized
    communications network as a mission critical system and ensure that the total number
    of mission critical systems reported conforms with OMB instructions.

5.	 Develop adequate contingency plans for the communications network. In addition, we
    suggest that the FEC instruct each of its program offices with a high level core
    business function to submit contingency plans, so that the plans can be evaluated and
    tested prior to January 1, 2000.

6.	 The FEC FAXLINE System provides an important public service; therefore, we
    recommend that the FEC perform end-to-end Y2K testing of that system to ensure an
    uninterrupted continuation of service.

7.	 Develop and issue the statement of work to obtain services for independent
    verification of Y2K renovations.

8.	 Conduct meetings with each division/office to reassess the number of mission critical
    systems, as well as the level of verification obtained through user acceptance testing.
    If user acceptance testing is to be relied upon as reported by the FEC, develop a


5
    “Executive Order on Year 2000 Conversion” dated February 4, 1998.


                                                   7

Audit Results                                                   Final Audit Report No. 98-08


    testing environment so system users can properly verify Y2K renovations and system
    performance.

9.	 Prepare a listing of all agency computer technology contracts, and review those
    contracts to ensure that the appropriate Y2K language has been included in order to
    comply with existing Federal regulations.


                            Assessing Project Risk
In order to keep abreast of events relating to the Y2K renovation effort at the FEC, in
early 1998 the Office of Inspector General (OIG) began requesting information on the
status of the agency’s Y2K project. By the fall of 1998, the OIG changed from being a
passive observer to taking a more active role through monitoring reported progress in the
Y2K renovation project. Our monitoring efforts included assessing by comparison, the
Y2K quarterly reports submitted by the FEC to OMB, and providing management with
the results of our analysis. To assist the FEC further in preparing computer systems for
the new millennium, the OIG subsequently became one part of a two prong approach for
independent verification and validation (IV&V) of agency-wide Y2K renovations.
Initially, we had offered our services to assist with independent validation of system
testing; however, in December 1998 the FEC granted the Y2K project manager funding
authority to obtain IV&V services from an outside vendor. Consequently, the agreed
upon role of the OIG would be to determine whether the progress reported by the FEC
matched its overall state of readiness. We placed special emphasis on two priority areas:
1) systems that provide and receive electronic data from outside parties, and 2) core
business functions that rely on computer processed data.

As reported by OMB, the Clinton Administration is committed to ensuring that the Y2K
problem does not interfere with the services that the American people rely on. Therefore,
during our audit we identified systems, assigning the highest priority to those systems
which transfer data to the public and systems that receive electronic data from outside
sources. Although most of the core business functions within the agency rely heavily on
computer processed data, we specifically identified six internal processes that either
transfer and/or receive electronic data from sources outside the FEC. These six processes
are: 1) the electronic filing process used by external parties for campaign finance
reporting, 2) public access through the Direct Access and State Access Programs, 3)
electronic data received by the Audit Division, including the Presidential public funding
program, 4) the communications network which transfers the data and also provides for
Internet access, 5) electronic transfer of accounting and payroll data, and 6) forms,
schedules, and other documentation provided to the public through electronic data
transfer. Our audit assessed the risk associated with the Y2K renovation of the computer
systems within these critical areas, and we offer recommendations which we feel will
reduce the agency’s exposure to the Y2K problem.




                                            8

Audit Results                                                                Final Audit Report No. 98-08


Risk is inherent in any renovation project. One common technique used to assess risk in a
system development or renovation project is to analyze diagrams that chart the flow of
electronic data through the system. OMB previously asked each Federal agency, having
any data exchange with outside sources, to inventory those exchanges. In its directive to
small Federal agencies issued in March 1998, OMB established a goal of February 1, 1998
for completing that data exchange inventory, and March 1, 1998 to communicate with
each exchange partner regarding the Y2K problem.6 While the Y2K project team had
completed an inventory of the agency’s internally developed software programs; upon our
request they were unable to provide a documented inventory of external data exchanges or
any corresponding data flow diagrams. To address interface and data exchange issues in
its “Year 2000 Computing Crisis: An Assessment Guide” published in September 1997,
the GAO recommends “developing a model showing the internal and external
dependency links between enterprise core business areas, processes, and information
systems.” Similar to OMB’s directives, the GAO guidelines also recommend “notification
of all outside data exchange entities” as well as “the need for data bridges and filters.”7

Even when all internal computer systems at the FEC are Y2K renovated, without effective
prevention efforts there is always a risk that data received from external providers which
has been processed, summarized, and transferred from a system not Y2K compliant might
populate internal systems with corrupt data. In order to block transfer of non-compliant
data, an industry practice is to develop and install front-end filters and system edit checks.
Where to install filters and edit checks capable of protecting agency computer systems
without unnecessarily restricting the transfer of data, can be determined from locating and
identifying date fields. In addition, the proper placement of sender notification
procedures, such as electronic error messaging with standby instructions can be
determined by analyzing data flow.

Audit Recommendation No. 1: We recommend that for the inventory of its data
exchanges, the FEC ensure that the internal and external dependency links between
enterprise core business areas, processes, and information systems are documented in
detail.

Management’s Comments to Audit Recommendation No. 1: “All data exchanges,
both inside and outside have been inventoried and mapped.”

OIG Response to Management’s Comments for Audit Recommendation No. 1: The
OIG considers management in agreement with the recommendation and have taken steps
to implement corrective action.




6
  “Progress Reports on Fixing Year 2000 Difficulties for Small Agencies,” OMB Memorandum for the
Heads of Selected Agencies, dated March 9, 1998.
7
  A data bridge is essentially software code that will transform electronic source data into a compatible
format acceptable to the receiving program or system.


                                                     9

Audit Results                                                                      Final Audit Report No. 98-08


                    Campaign Finance Disclosure System Overview

The Disclosure System, appropriately named since it discloses campaign finance reports to
the public, receives electronic data from outside sources. Developed in-house by agency
programming staff, the Disclosure System is a complex mix of hardware platforms and
software programs comprised of many different computer languages. It is the primary
repository for millions of campaign finance records received each year from candidates,
political committees, and political parties participating in Federal elections. The
Disclosure System is capable of both receiving and transmitting electronic data through
either a dedicated modem using the telecommunications medium (X.25), or via Internet
protocol (TCP/IP).

    Exhibit No. 3
           Electronic Exchange of Federal Campaign Finance Information




                            Candidates,
                TCP/IP                         Hard Copy, or Data
                or X.25
                          Committees, and                  Diskette
                          Political Parties




      Electronic Filing                            Data Input




                             WEB Site
                                                                         Disclosure Data Base
                          www.fec.gov




                                                       Direct Access &                          Public Records
                                                        State Access                               Facility
                                                          Programs                              Washington D.C.


                                                                          X.25




                                              TCP/IP
                                                                          The Public




      Source: The Federal Election Commission


Candidates and committees submit campaign finance information either through an
electronic filing process, by data diskette, or in document form. As part of our audit
program, we conducted interviews with agency staff and constructed a data flow diagram


                                                       10

Audit Results                                                           Final Audit Report No. 98-08


for disclosure of campaign finance information (see Exhibit No. 3). The FEC provides
campaign finance information free of charge on the WEB. In addition, the public has free
access to this information at the Public Records Facility at offices located in Washington,
DC. Users requiring more detailed information about candidates, parties, and political
action committees either subscribe on-line to the Direct Access Program, or in the case of
State election offices obtain free access through the State Access Program.

Data from the electronic filing process is submitted directly into either the agency’s WEB
site or the Disclosure Data Base. The electronic filing software available from the FEC
was built Y2K complaint. According to the FEC, during January 1999 the Y2K renovated
version of the Disclosure Data Base scheduled to be in operation in the year 2000, has
been fully implemented along with both the Direct Access and State Access Programs.

Fully Y2K compliant is defined by the Federal Acquisition Regulations as information
technology that, “accurately processes date/time data (including, but not limited to,
calculating, comparing, and sequencing) from, into, and between the twentieth and
twenty-first centuries, and the years 1999 and 2000 and leap year calculations, to the
extent that other information technology, used in combination with the information
technology being acquired, properly exchanges date/time with it8.”

Although the FEC is currently reporting the Disclosure System as completely converted,
tested, and implemented; it does not operate independently. For example, without a Y2K
compliant communications system, the FEC will not be able to conduct “end-to-end”
system testing to ensure full Y2K compliance, as defined by Federal regulations. The
communications network in conjunction with end-to-end testing are discussed later in this
report. In addition, data filters and bridges will need to be tested to ensure that only Y2K
compliant data is permitted to integrate with the Disclosure System and the agency’s
WEB site.

                     The Presidential Public Funding Program

The Audit Division evaluates the matching fund submissions of Presidential candidates and
determines the amount of contributions that may be matched with Federal funds. Federal
regulations require that for any data submitted for the Presidential public funding program
which is generated directly or indirectly from computerized files or records, the candidate
shall submit a copy of the contributor list on magnetic media.9 The FEC has established
and published filing format specifications for the data sent via magnetic tape.10 The date
fields in the current version of the specifications are shown in a six digit format
(YY/MM/DD). According to staff within the Audit Division, the documentation is
scheduled to be updated prior to the 2000 Presidential election cycle. Data received by
the Audit Division for the Presidential public funding program is first reviewed by agency

8
  “Federal Acquisition Regulation; Year 2000 Compliance”, dated August 22, 1997.
9
  Title 11, of the Code of Federal Regulations (CFR), section 9036.1(b)(2).
10
   “Financial Control and Compliance Manual, For Presidential Primary Candidates Receiving Public
Financing.” Federal Election Commission, dated January 1996.


                                                 11

Audit Results                                                    Final Audit Report No. 98-08


staff before it is ever integrated into an internal computer system. This substantially
reduces the risk that non-compliant Y2K data will inadvertently be input into an agency
database.

However, the Audit Division also gathers information from candidates, committees, and
political parties selected for an examination of their campaign finance activities. This
information may be received on magnetic tape, or on data diskette, or as a flat file sent
through the Internet. Audit staff we interviewed were unaware of any established
communications to notify data exchange partners of the potential problems to either
themselves or the FEC, if non-compliant Y2K date fields are transferred.


                    The FEC Needs Y2K Outreach Program

As previously stated, in March 1998 OMB established milestone dates for every small
Federal agency to communicate with each of their external data exchange partners
regarding the Y2K problem. During calendar year 2000, thousands of candidates,
committees, and political parties will be eligible to exchange electronic data with the FEC.
The Office of Election Administration (OEA) at the FEC does assist state and local
election officials by responding to inquiries, publishing research and conducting
workshops on all matters related to election administration. In addition, the OEA briefs
foreign delegations on the U.S. election process, including voter registration. In this
capacity, OEA has designed into their outreach program notification to all 50 State
election officials of the potential risk involved in running unverified automated elections
systems in the year 2000.

However, agency outreach efforts to date have not included notification to all eligible
external data providers of the potential consequences of sending non-compliant electronic
data to the FEC. In its April 1998 Y2K quarterly report to OMB, the FEC stated that it
originally intended “to begin alerting its customer base starting in June 1998, of the
format changes and the implementation schedule.” The report also stated that the FEC
would use the mail to contact all subscribers using the Direct Access Program, after that
program was fully implemented on January 1, 1999. In discussions with the Y2K project
team during January 1999, the project manager stated that the FEC no longer intends to
contact its customer base regarding issues specific to the Y2K problem. According to the
Y2K project manager, this change of policy is due partly to the fact that the FEC
electronic filing software was developed Y2K compliant and is made available free of
charge. In addition, although electronic filers do not have to use the FEC developed
software, those that acquire custom designed programs must first be individually validated
before they can send electronic data to the FEC. Electronic filers are provided with filing
formats as well as a password. Therefore the FEC concludes, it is not necessary to notify
each eligible electronic filer of issues relating specifically to the Y2K problem, and the
issue was dropped from the February 1999 Y2K report to OMB.




                                             12

Audit Results                                                    Final Audit Report No. 98-08


We believe that this logic runs contrary to the Y2K directive issued by OMB requiring all
Federal agencies to establish communications with each external data partner regarding
the Y2K issue, no later than March 1, 1998. First of all, electronic filers are not the
agency’s only data exchange partners. Also, in order to successfully exchange electronic
data between two computer systems, there must be a similar file format; or if not, at least
a software bridge to accommodate dissimilar formats. Second, no system administrator is
going to allow an outside entity to exchange data without obtaining proper access rights.
Therefore, for the electronic filing process, the FEC is simply following standard
procedures required under normal operating conditions, and not communicating with each
data exchange partner on how to fix the Y2K problem, as requested by OMB.

As shown previously in Exhibit No. 3, the FEC maintains an Internet WEB site. In
addition to providing public access to Federal campaign information, this site provides a
host of general information relating to the FEC. This information includes instructions on
electronic filing in order to assist software developers and programmers when converting
existing programs to conform to the electronic filing system. Early in our audit, we
suggested to the Y2K project team that the WEB site could be used to keep the agency’s
public current regarding the Y2K problem.

Audit Recommendation No. 2: We recommend that the FEC communicate with each
external data exchange partner regarding the Y2K issue, and use the agency’s WEB site as
a means of keeping its public informed on the current status of the Y2K problem.

Management’s Comments to Audit Recommendation No. 2: “…we have
communicated guidance on the Website and in the Direct Access Program login header.
Additionally, we will contact those known entities who are involved in providing software
to the electronic filing community and alert them to this requirement.”

OIG Response to Management’s Comments for Audit Recommendation No. 2: The
OIG considers management in agreement with the recommendation and have taken steps
to implement corrective action.


                            Financial System Overview

Computer systems at the FEC maintain and process personnel and accounting data for an
agency staff of over 300 full-time employees, and a budget of more than $30 million. The
financial system is essentially composed of three integrated computerized systems:
personnel, payroll, and accounting.

The flow of electronic information within the financial system starts with the personnel
system which transfers data to the payroll system. From the payroll system, data is then
sent to the accounting system. Both accounting and payroll data is subsequently
transferred to the U.S. Department of Treasury (Treasury). This simple flow of
information is shown in Exhibit No. 4.


                                            13

Audit Results                                                             Final Audit Report No. 98-08




Exhibit No. 4
                     Electronic Data Exchange for the Financial System

      FEC Personnel System




                             FEC Payroll System




                                                  FEC Accounting System      U.S. Department of Treasury




 Source: The Federal Election Commission

Currently, the financial system receives no electronic data from sources outside of the
FEC. The data exchange with Treasury is accomplished through system software supplied
to the FEC by the Treasury. The data exchange process to Treasury begins with FEC
staff downloading accounting and payroll data onto a data diskette; manually transferring
the diskette to a desktop computer; uploading the data into the Treasury supplied
software; and completing the transfer.

The FEC intends to outsource both the personnel and payroll systems to the National
Finance Center (NFC). In its August 1998 quarterly report to OMB, the FEC stated that
the transfer of the two systems would not be completed until at least October of 1999.
The FEC had hoped to migrate these two systems to the NFC much earlier, but the
transfer was delayed due to the NFC dealing with its own Y2K problems. Because of the
risk associated with the late transfer of these two systems, the FEC decided to go ahead
and renovate both systems. Consequently, each individual component of the financial
system has now been Y2K renovated. However, these integrated systems also use the
communication network, and as discussed below that system is not fully Y2K compliant.


                 Communications Network Not Fully Compliant

As reported by the FEC, its telecommunications fall into two major categories: 1)
communications associated with the telephone system, and 2) communications associated
with computer data. This latter grouping is further sub-divided into communications
provided through an ADP contractor, communication services provided by an electronic
filing contractor, and the internal communications network operated and maintained by the
agency’s information technology staff. While the electronic filing contractor is reporting
their services as Y2K compliant, the current ADP contract has no provisions requiring the
vendor to be compliant; furthermore, the contract is scheduled to expire during June 1999.


                                                       14

Audit Results                                                    Final Audit Report No. 98-08


In addition, while the Y2K project team is in the process of renovating the internal data
communications environment, work remains to be done.

As part of our audit fieldwork, we reviewed the ADP services contract. Products and
services provided through the ADP contractor include Internet services, as well as
communication software and computer hardware. The statement of work for the current
contract was issued on November 9, 1992, with vendor proposals due by February 1,
1993. After detailed evaluation of each vendor response, the contract was subsequently
awarded on June 3, 1993. It took approximately eight months to award the 1993
contract, which did not include the time required to develop the statement of work prior
to its issuance. The contract was awarded for services to cover a 72 month period, with
the agency having an automatic “right of extension” of vendor supplied products and
services to the 78th month. This could extend the contract on a month-to-month basis at
the option of the FEC through December 1999. While the Y2K project manager
anticipates awarding a contract proposal during 1999 for communication services similar
to those provided under the 1993 contract including provisions for the vendor to
demonstrate the product and services, to date there has been no statement of work issued
for a new contract.

In its February 1999 Y2K report to OMB, the FEC states: “Although the ADP contractor
is responsible for a major application, whether or not they are Y2K compliant at this
juncture is not relevant.” However, in its publication, “Year 2000 Crisis: A Testing
Guide” issued in November 1998 the GAO takes a diametrically opposite position, as
follows:

        “In order to execute end-to-end testing and ensure that all systems in the
        chain of support to core business areas function as intended, the
        telecommunications infrastructure that interconnects the systems must be
        compliant and ready for testing. Ensuring that the vendor-supported
        components of the telecommunications infrastructure are compliant is a
        process that should have begun as part of establishing the test
        infrastructure. By now this process should have been completed for all
        telecommunications systems.”

In its March 1998 “Memorandum to the Heads of Small Agencies,” OMB stated: “All
Federal agencies must be prepared to make a smooth transition through the year 2000.”
Late delivery of a Y2K compliant communications network presents a substantial risk for
resolving the agency’s Y2K problem. Not only may there not be enough time for the
agency to adequately test vendor products and services, but also mandatory end-to-end
testing of systems which exchange or transfer data through the network may not be
completed in time. In its “Year 2000 Computing Crisis: An Assessment Guide,” GAO
states: “The purpose of end-to-end testing is to verify that a defined set of interrelated
systems, which collectively support an organizational core business area or function,
interoperate as intended in an operational environment (either actual or simulated).”
Late renovation of the FEC’s communication network could mean that end-to-end testing


                                            15

Audit Results                                                     Final Audit Report No. 98-08


of Y2K renovations will be delayed; or worse, not done at all. Therefore, it is essential to
formulate an immediate strategy to address this critical issue.

Audit Recommendation No. 3: We recommend that the FEC update and issue the
statement of work requiring Y2K compliant technology for the product and services
covered under the ADP contract, complete work on the agency’s internal network, and
perform end-to-end testing using FEC data to ensure that the communications network is
fully Y2K compliant.

Management’s Comments to Audit Recommendation No. 3: “The CBD Notice for
RFP9902 (Information Technology) was issued on April 13, 1999. The RFP is expected
to be available April 26, 1999 with an estimated award date of late August. Complete
implementation, including 30 day minimum parallel and Y2K testing is expected to be
accomplished by November 30, 1999.”

OIG Response to Management’s Comments for Audit Recommendation No. 3: Of
special concern in management’s response is the uncertainty surrounding the scheduled
late implementation of the Information Technology contract (commonly referred to as the
“ADP contract”), which provides computer services for / between the FEC and the central
computer facility housing the Disclosure Database. As stated, agency officials only expect
Y2K testing on that contract to be accomplished by November 30, 1999. This is much
later than established government-wide milestone dates and presents a significant risk to
the FEC.


         Inconsistency in Reporting Total Mission Critical Systems

For OMB reporting purposes, the FEC does not currently include the communications
network in the count for total mission critical systems. Yet, the FEC describes the
communications system as a “major application” in its February 1999 Y2K report. OMB
has published guidelines recommending that agency computer systems be classified as
either mission critical or non-mission critical. OMB has consistently requested that
agency’s provide a status on the total number of mission critical systems, so that the
Administration can issue accurate progress reports on fixing the Y2K problem in Federal
systems to the American people.

In addition, OMB has requested that mission critical systems be reported as compliant; or
if not compliant, classified as being replaced, repaired, or retired. In its February 1999
Y2K report to OMB, the FEC is reporting the total number of mission critical systems as
sixteen, yet the number of mission critical systems listed within the report as compliant,
replaced, repaired, and retired actually adds up to a total of eighteen systems. This
inconsistency, as depicted in the following table taken from the February 1999 FEC Y2K
report, has caused some confusion.




                                             16

Audit Results                                                             Final Audit Report No. 98-08


     Total number of           Number          Number to be       Number to be       Number to be
     Mission-Critical         Compliant         Replaced           Repaired            Retired
        Systems
            16                     14                 3                  1                  0


In its March 1998 directive entitled “Memorandum to the Heads of Small Agencies” OMB
requests that, “For this table, the four right-hand columns (“Number Compliant,”
“Number Being Replaced,” “Number Being Repaired,” “and Number Being Retired”)
must add up to the left-hand column (“Total Number of Mission-Critical Systems”).”
Consequently, in its most recent quarterly report, OMB has identified the FEC as having
eighteen mission critical systems; when in fact, the FEC is only currently reporting sixteen
mission critical systems. In that report, OMB issued new reporting requirements asking
each small Federal agency that has not fully completed their Y2K renovation work, to
begin reporting quarterly to OMB on their progress11. This means that the FEC will need
to issue its next Y2K progress report to OMB on May 15, 1999.

Audit Recommendation No. 4: We recommend that in future Y2K reports issued to
OMB, the FEC include the computerized communications network as a mission critical
system and ensure that the total number of mission critical systems reported conforms with
OMB instructions.

Management’s Comments to Audit Recommendation No. 4: “With regards to FEC
owned internal communications equipment, the FEC will make every effort to ensure Y2K
compliance.”

OIG Response to Management’s Comments for Audit Recommendation No. 4:
Management states that every effort will be made to ensure the FEC owned internal
communications equipment is Y2K compliant. However, management’s comments are
non-responsive to our recommendation to include the computerized communications
network as a mission critical system and ensure that the total number of mission critical
systems reported conforms with OMB instructions.


                          The FEC Needs Contingency Planning

Contingency plans ensure the continuity of core business processes. Theoretically with
adequate contingency planning a mission critical system could fail, yet the FEC would still
be able to accomplish its mission. On the other hand, without a well designed contingency
plan the failure of the one major system, such as the agency’s communications network,
could disrupt operations for the entire organization. During 1998, OMB asked each
Federal agency to identify all mission critical systems not expected to be fully Y2K
compliant by March 1999, and also report the date that a corresponding contingency plan

11
     “8th Quarterly Report: Progress on Year 2000 Conversion,” issued by OMB on March 18, 1999.


                                                   17

Audit Results                                                      Final Audit Report No. 98-08


would be in place. The FEC has reported that it is still in the process of both renovating
its own data communications environment and ensuring that the ADP communications
contract is compliant. Additionally, OMB has repeatedly requested that contingency plans
for high-level core business functions be completed and tested.12 In its February 1999
Y2K quarterly report to OMB, the FEC simply states, “During the remaining months of
calendar year 1999, the FEC will develop a contingency plan for the remote possibility
that the computer systems become inoperable.” In its 8th Quarterly Report issued during
March 1999, OMB expressed the following concerns regarding the FEC’s Y2K project:

        “Making progress on IT systems. The agency is 100% complete in its
        mission critical software conversion. Anticipated compliance in
        October. FEC needs a business continuity and contingency plan. The
        verification and validation plan is weak. FECs payroll and personnel
        systems will be converted to National Finance Center in October
        1999.”

Audit Recommendation No. 5: We recommend that the FEC develop adequate
contingency plans for its communications network. In addition, we suggest that the FEC
instruct each of its program offices with a high level core business function to submit
contingency plans, so that the plans can be evaluated and tested prior to January 1, 2000.

Management’s Comments to Audit Recommendation No. 5: “For the
communications network, the FEC will review its current procedures for addressing a
communications network failure. A contingency plan will be developed to address such a
failure in the event it should occur. Preliminary discussions regarding this issue have
been held. A formal plan is scheduled to be developed.”

OIG Response to Management’s Comments for Audit Recommendation No. 5: In
regards to management’s comments on contingency planning, it is noted that the FEC has
held preliminary discussions regarding this issue and a formal plan is scheduled to be
developed; however, recent OMB testimony before Congress indicates that all Federal
agencies are expected to submit business continuity and contingency plans by June 15,
1999. Therefore, we believe that the FEC should strongly consider the contributions and
suggestions offered in Finding Number 1, of our Management Letter shown in Appendix
D of this report. These suggestions include using an electronic supplied version of a
benchmark comprehensive Y2K plan as the foundation for developing an FEC-wide team
effort for contingency planning and staff involvement.




12
  “Revised Reporting Guidance on Year 2000 Efforts” OMB M-99-09, Memorandum for the Heads of
Selected Agencies, dated January 26, 1999.


                                              18

Audit Results                                                     Final Audit Report No. 98-08




           FEC FAXLINE System Not Scheduled for Y2K Testing

The Public Disclosure Division processes incoming campaign finance reports from
political committees and candidates involved in Federal elections, and makes those reports
available to the public in paper form, on microfilm, and through digital computer images.
The division also manages the FEC FAXLINE System, an automated faxing service which
transfers electronic information to the public. The FEC FAXLINE System has over 440
documents and publications available for immediate transmission. Materials available
through this service include the forms necessary to report Federal campaign finance
activities. In each of its quarterly reports assessing the progress of Y2K renovations in the
Federal sector, OMB has stated that the Clinton Administration is committed to ensuring
that the American people will continue to receive the services they rely on and government
services will not be disrupted by the transition to the year 2000.

During February 1999, the Public Disclosure Division implemented a new FEC FAXLINE
System that was developed Y2K compliant and is supported through a contract with an
outside vendor. The system consists primarily of a host computer installed with
supporting software, and a twelve hour back-up power unit. The FEC FAXLINE System
is not connected directly to the FEC communications network, instead data is delivered
through eight dedicated phone lines. The FEC FAXLINE System also maintains a
dedicated diagnostic phone line used by the vendor to troubleshoot the system. According
to the Y2K project team, no plan is being considered to have the FEC FAXLINE System
tested from end-to-end specifically for Y2K compliance. When interviewed, the Y2K
project manager maintains that the only risk to the public is to have an invalid time stamp
placed on the document received. Without end-to-end testing to include the supporting
telecommunications infrastructures, the full consequences will remain unknown.

Audit Recommendation No 6: The FEC FAXLINE System provides an important
public service; therefore, we recommend that the FEC perform end-to-end Y2K testing of
that system to ensure an uninterrupted continuation of service.

Management’s Comments to Audit Recommendation No. 6: “We agree that the
FAXLine should be tested, and that the system should be communicated directly to the
public records office.”

OIG Response to Management’s Comments for Audit Recommendation No. 6: The
OIG considers management in agreement with the recommendation and will take steps to
implement corrective action.




                                             19

Audit Results                                                      Final Audit Report No. 98-08




            Independent Verification of Y2K Renovations Needed

OMB has asked each Federal agency “to assure independent verification that systems are
fixed and to assure that information reported is accurate.”13 During December 1998, the
Y2K project team and the OIG entered into a cooperative agreement for verification and
validation of agency-wide Y2K renovations. The agency’s plan would consist of a two
prong approach: 1) the agency would contract with an outside vendor for verification of
Y2K renovations, and 2) the OIG would compare the agency’s reported progress to its
actual state of readiness with particular emphasis placed on mission critical systems that
exchange data electronically with the public. It was not until December 1998 that the FEC
granted the Y2K project manager the funding authority to obtain IV&V services from an
outside vendor. Although the Y2K project team continues in discussions with potential
vendors, the FEC still has not awarded a contract for IV&V testing of agency-wide Y2K
renovations.

In the first paragraph of its February 1999 Y2K report to OMB, the FEC asserts that
“100% of the FEC’s mission critical software has now been renovated and tested.” If the
reader did not scrutinize the report further, we believe that this statement by itself might
lead the reader to an invalid conclusion that progress in the renovation and testing effort
has reached a level, which in fact has not been achieved. For instance, as explained later in
the body of the February 1999 Y2K report, while system testing has been completed on
the Disclosure System, other testing has yet to be concluded. In addition, testing of
computer hardware and 3rd party software remain, both systems are listed as mission
critical. It should be noted that additional software renovations along with system testing
may be necessary as a result of feedback received from the proposed IV&V process. Also
as described next, our audit results show that user acceptance testing has fallen far short of
the expected outcome. Without immediate action, there is a risk that that the FEC will not
be able to validate and verify Y2K renovations and testing in time.

Audit Recommendation No. 7: We recommend that the FEC develop and issue the
statement of work to obtain services for independent verification of Y2K renovations.

Management’s Comments to Audit Recommendation No. 7: “Your
recommendation…was implemented April 19, 1999 via a contract with SEEC, Inc. In
order to ensure independent verification, validation will be accomplished at the vendor
site.”

OIG Response to Management’s Comments for Audit Recommendation No. 7: The
OIG considers management in agreement with the recommendation and is taking
appropriate steps to implement the recommendation. While verification of code at the
vendor’s site provides a degree of assurance that due diligence was performed by the

13
  “Revised Reporting Guidance on Year 2000 Efforts” OMB-M-98-12, Memorandum for the Heads of
Selected Agencies, dated July 22, 1998.


                                              20

Audit Results                                                         Final Audit Report No. 98-08


agency in repairing programming code; it should also be pointed out that the vendor
usually will not attest to the level of compliance. Consequently, the method recommended
by both OMB and the GAO to ensure code compliance, as well as the reliability of other
Y2K renovations including computer hardware and communication software, is through
end-to-end testing of each system.

                 User Acceptance Testing Not Meeting Expectations

During our early discussions with the Y2K project team, we were informed that the FEC
was relying on user testing to verify Y2K renovations after the converted systems were
implemented. The GAO guidelines define acceptance testing as the process, “to verify
that the complete system (i.e., the full complement of application software running on the
target hardware and systems software infrastructure) satisfies specified requirements
(functional, performance, and security) and is acceptable to end users.”14 In both the
August 1998 and February 1999 Y2K reports and using almost identical wording, the
FEC states: “By bringing each program on-line as it is repaired or converted we utilize
the best testing environment available, the actual user of the programs.” While the
normal operating environment may provide assurance that Y2K changes have not
introduced errors to adversely affect the functionality of a particular computer program;
without structured technical assistance there can be no guarantee that critical future dates
will actually be tested by the users of the system. In addition, GAO guidelines recommend
that initial acceptance testing be part of the validation phase, prior to implementation of
the renovated system.15 To determine whether the user environment provided assurance
that Y2K renovations were complete and adequate, we surveyed the users of each mission
critical computer system reported by the FEC as implemented.

During February 1999, we sent a user survey (see Appendix A) to each of the twelve
divisions/offices responsible for the sixteen reported mission critical systems, so that we
could determine the effectiveness of user acceptance testing. Except for computer
hardware and 3rd party software applications, the FEC is currently reporting all other
mission critical computer systems as fully Y2K renovated and in operation. Of the
fourteen mission critical systems reported by the FEC as completely renovated and
implemented, only a single system was reported as receiving a thorough user acceptance
test. Nine divisions/offices reported either performing no user acceptance testing, or only
incidental testing as a by-product of routine operations. One of the division/offices
responded that their system was not yet Y2K compliant. One office did not respond to
our survey.

It was evident from the survey results, users have not received adequate technical
assistance to perform acceptance testing. In addition, some divisions/offices listed by the
FEC as having responsibility for a mission critical system were not sure whether they



14
     “Year 2000 Computing Crisis: A Testing Guide” GAO, dated November 1998.
15
     “Year 2000 Computing Crisis: An Assessment Guide” GAO, dated September 1997.


                                                 21

Audit Results                                                            Final Audit Report No. 98-08


operated a mission critical system, or not. Furthermore, the responses from two
divisions/offices indicated that they didn’t have a mission critical system.

Audit Recommendation No. 8: We recommend that the Y2K project team conduct
meetings with each division/office to reassess the number of mission critical systems, as
well as the level of verification obtained through user acceptance testing. If user
acceptance testing is to be relied upon as reported by the FEC, develop a testing
environment so system users can properly verify Y2K renovations and system
performance.

Management’s Comments to Audit Recommendation No. 8: “In order to complete
the remediation of computer programs at the FEC, the following steps occurred:
        1) Programs were copied
        2) Those copied programs were replaced, remediated or retired
        3) Updated programs were fully tested and put back into operation
Based on the above, the FEC has completed 100% of all programs identified as mission
critical per our most recent OMB report.”

OIG Response to Management’s Comments for Audit Recommendation No. 8:
Management’s comments do not address our recommendation. We recommend that the
Y2K project team conduct meetings with each division/office to reassess the number of
mission critical systems, as well as the level of verification obtained through user
acceptance testing. In addition, if user acceptance testing is to be relied upon as reported
by the FEC, management should develop a testing environment so system users can
properly verify Y2K renovations and system performance.


                       Compliance with Laws and Regulations

As previously stated, according to Federal regulations all Federal agencies have been
directed to notify each contractor providing essential computer services of policies
established to ensure Y2K compliance. Those regulations require that all Federal
contractors either provide Y2K compliant technology, or ensure that non-compliant
technology is upgraded to become Y2K compliant in a timely manner.16 During our
interviews with FEC staff, we determined that agency computer services contracts may
not have been reviewed to ensure that the appropriate Y2K provisions were included.
Early in our audit, we provided the agency’s Y2K project team with the recommended
contract language developed by the Federal government. As part of our audit fieldwork,
we scheduled a comprehensive review of computer technology contracts in order to
determine the level of compliance with applicable Federal regulations. However, upon our
request in March 1999, the FEC was still unable to provide a listing of the contracts with
the vendors that supply computer services to the agency. Without being able to identify

16
  Title 48 of the Code of Federal Regulations (CFR), part 39.106 “Year 2000 compliance,” dated August
7, 1997.


                                                  22

Audit Results                                                   Final Audit Report No. 98-08


every computer services contract, the FEC cannot ensure that each of its vendors has been
notified to provide only Y2K compliant technology.

Audit Recommendation No. 9: We recommend that the FEC prepare a listing of all
computer technology contracts, and evaluate those contracts to ensure that the
appropriate Y2K language has been included to comply with Federal regulations.

Management’s Comments to Audit Recommendation No. 9: “Data Systems has
identified computer contracts to the Contracting Officer. We suggest that you
communicate directly with the Contracting Officer regarding this particular issue. We
will notify them (current contractors with contracts through 2001) however specifically of
this requirement. In conclusion, current contracts are Y2K compliant.”

OIG Response to Management’s Comments for Audit Recommendation No. 9:
Management suggest that the OIG communicate directly with operational staff in order to
resolve the audit recommendation. While we believe our recommendations and
suggestions would enhance the agency’s Y2K renovation effort, the OIG is constrained by
Federal law from directing FEC operations. Guidance on the scope of the OIG can be
obtained from Public Law 95-452, as amended by Title 1 of the Inspector General Act
Amendments, Public Law 100-504. Furthermore, management’s suggestion raises
concerns whether the appointed project officials have the authority to coordinate agency-
wide Y2K renovation efforts. Centralized planning and direction is crucial for large and
complex agency-wide projects i.e., resolving the FEC’s Y2K problem.


                                      Conclusion

Clearly, the FEC has much to accomplish in the months ahead in order to prepare its
computer systems for the new millennium. As previously stated, the FEC is reporting all
internally developed mission critical software as converted and tested. Feedback from the
agency’s proposed IV&V contract with an outside vendor should indicate the adequacy of
this conversion effort. Yet, successful renovation of in-house developed software is only
part of the total Y2K project, significant though it may be. The areas addressed within
this audit report pose a substantial risk to the agency, if not properly resolved.
Furthermore, in a letter to management we express additional concerns that the FEC has
neither developed a comprehensive Y2K plan to support project management, nor has the
Y2K project team documented their efforts converting the in-house developed software
(see Appendix D). Without immediate resolution, we believe these two conditions will
only increase the exposure of the FEC to the Y2K problem.




                                            23

 Appendix A                                                        Final Audit Report No. 98-08




                      Audit Survey of Year 2000 Renovations

               User Acceptance Testing For Critical Computer Systems



Department Name:


Name of Responding Official:
(Note: Please Respond No Later Than February 26, 1999)


Name(s) of the Reported Mission Critical Computer Systems in Your Department:
(Note: If you are unaware of a mission critical computer system within your area, please
respond by indicating such, and return your reply c/o: Dorothy Maddox-Holland, Office of
Inspector General. If you do not know the name of your system, use the name(s) as shown
in the table presented at the end of this survey)




Question No. 1:

(a) Is the reported mission critical computer system(s) in your area of responsibility
Y2K compliant? (Yes or No, or Don’t Know)



(b) Has the Y2K compliant version been fully implemented (placed into operation)?
(Yes or No, or Don’t Know)


If Yes to both (a) and (b) for any system, please identify the system(s) as both compliant
and implemented, and go to Question No. 2.



If No or Don’t Know for either (a) or (b) for any system, you don’t need to respond
further for that particular system. Please identify the system(s) and its current status, if
known. If you have only one known mission critical system, and answered No or Don’t
Know to either (a) or (b), after you identify that system you are finished with the survey.
Please return your response c/o: Dorothy Maddox-Holland, Office of Inspector General.
Thank you!




                                              24

 Appendix A                                                      Final Audit Report No. 98-08




Question No. 2:

Did your department perform user acceptance testing of Y2K renovations for the
mission critical computer system(s) in your area of responsibility after
implementation? (Yes or No)



If your answer to Question #2 is No for a system, identify each system and go to question
No. 3.



If your answer to Question No. 2 is Yes for a system, please list that system and answer
the following three questions before going to Question No. 3:

a)	 Were scripts prepared for users to follow to test the system’s Y2K renovations? (Yes
    or No) If Yes, please provide a copy of the test scripts along with your response to the
    survey.


b)	 Were unexpected test results logged? (Yes or No) If Yes, please provide a copy of
    the exception report along with your response to the survey.


c)	 From the list of four system components below, please indicate each that you tested in
    conjunction with the mission critical system software:

1)   application software,
2)   hardware,
3)   firmware,
4)   communications network.


Question No. 3:

Did user department management review and approve the system’s performance
after conversion for Y2K renovations? (Yes or No)

Please identify any system and indicate either Yes or No for that system.




                                            25

Appendix A                                                          Final Audit Report No. 98-08




             Mission Critical Computer Systems Reported by FEC
                 Y2K Quarterly Report to OMB, August 1998

 System                                                  Program Office

 Accounting                                              Administration Division
 Disclosure                                              Data Systems Development
 External Source Programs                                Data Systems Development
 Hardware                                                Data Systems Development
 Imaging Micro Updating                                  Public Disclosure Division
 Information                                             Information Division
 Mailroom                                                Administration Division
 Matching Funds Processing                               Audit Division
 OGC Tracking                                            Office of General Counsel
 Open/Closed Minutes Comm. Sec.                          Secretary of the Commission
 Payroll                                                 Administration Division
 Personnel                                               Administration Division
 Planning & Management                                   Planning and Management
 Press                                                   Press Office
 RAD                                                     Reports Analysis Division
 Teamlinks /Lotus Notes                                  Data Systems Development




                 - - - - - - - - - - - End of Survey - - - - - - - - - - -




                                            26

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   27

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   28

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   29

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   30

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   31

Appendix B - Management Comments         Final Audit Report No. 98-08




                                   32

Appendix C - OIG Response                                       Final Audit Report No. 98-08



        OIG Response to Management’s Comments on Draft Report

         In its response to our draft audit report (see Appendix B), the FEC has expressed
general concurrence with our audit recommendations. The FEC’s response also presents
recent steps that have been taken to address some of the issues raised both by OMB in its
quarterly reporting, as well as from our audit. However, in management’s response agency
officials express the following: “Unlike larger Agencies, the FEC does not have the
personnel resources to perform many of the recommendations outlined in the report.” We
would like to point out that all of the recommendations in the audit report are supported by
published OMB directives developed for small Federal agencies. Furthermore, both the
Administration and Congress made additional funding available to Federal agencies
requesting assistance in fixing Y2K problems. In its 8th Quarterly Report, under the
section relating to small and independent agencies, OMB makes the following offer: “For
those agencies that are behind schedule, OMB will work with senior management to
ensure that they will be ready.”


        Although, the agency’s stated corrective actions taken and planned since the
issuance of the draft audit report are encouraging, much needs to be accomplished within
the allotted time remaining. Of special concern in management’s response is the
uncertainty surrounding the scheduled late implementation of the Information Technology
contract (commonly referred to as the “ADP contract,” see audit recommendation #3),
which provides computer services for / between the FEC and the central computer facility
housing the Disclosure Database. At this time, agency officials only expect Y2K testing on
that contract to be accomplished by November 30, 1999. This is much later than
established government-wide milestone dates and presents a significant risk to the FEC.


         In regards to management’s comments on contingency planning (refer to audit
recommendation #5), it is noted that the FEC has held preliminary discussions regarding
this issue and a formal plan is scheduled to be developed; however, recent OMB testimony
before Congress indicates that all Federal agencies are expected to submit business
continuity and contingency plans by June 15, 1999. Therefore, we believe that the FEC
should strongly consider the contributions and suggestions offered in Finding Number 1, of
our Management Letter shown in Appendix D of this report. These suggestions include
using an electronic supplied version of a benchmark comprehensive Y2K plan as the
foundation for developing an FEC-wide team effort for contingency planning and staff
involvement.




                                            33

Appendix C - OIG Response                                      Final Audit Report No. 98-08




         In audit recommendations numbers six and nine, management suggests that the
OIG communicate directly with operational staff in order to resolve the respective audit
recommendations. While we believe our recommendations and suggestions would enhance
the agency’s Y2K renovation effort, the OIG is constrained by Federal law from directing
FEC operations. Guidance on the scope of the OIG can be obtained from Public Law 95-
452, as amended by Title 1 of the Inspector General Act Amendments, Public Law 100-
504. Furthermore, management’s suggestion raises concerns whether the appointed
project officials have the authority to coordinate agency-wide Y2K renovation efforts.
Centralized planning and direction is crucial for large and complex agency-wide projects
i.e., resolving the FEC’s Y2K problem.


        Addressing the verification efforts for agency renovations (refer to audit
recommendation #7), management’s response reiterates “the importance of conducting an
independent verification and validation of Y2K code compliance.” Management goes on
to state: “In order to ensure independent verification, validation will be accomplished at
the vendor site.” In our audit, we recommend conducting independent verification and
validation. However, while verification of code at the vendors site provides a degree of
assurance that due diligence was performed by the agency in repairing programming code;
it should also be pointed out that the vendor usually will not attest to the level of
compliance. Consequently, the method recommended by both OMB and the GAO to
ensure code compliance, as well as the reliability of other Y2K renovations including
computer hardware and communication software, is through end-to-end testing of each
system.


       With the limited time remaining, and considering the amount of effort and
coordination necessary to complete Y2K renovations at the FEC, there is a moderate
degree of risk that the agency may not be ready on time.




                                            34

Appendix D - Management Letter         Final Audit Report No. 98-08




                                 35

Appendix D - Management Letter         Final Audit Report No. 98-08




                                 36

Appendix D - Management Letter         Final Audit Report No. 98-08




                                 37

                           Distribution List




Primary Action Officials                                No. of Copies

     Richard L. Hooper, Director, DSDD 
 ……………………………………….…. 4
     Year 2000 Project Manager

     Federal Election Commission

     999 E Street, N.W.

     Room 833

     Washington, DC 20463


     James A. Pehrkon ……………………………………………………………… 
2
     Staff Director

     Federal Election Commission

     999 E Street, N.W.

     Room 933

     Washington, DC 20463



Other FEC Offices

     The Commissioners …………………………………………………………              6


     Office of General Counsel …………………………………………………..       1


     Congressional Affairs Office ………………………………………………..     1




                                  38

